NATIONAL CREDIT UNION ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL



        SEMIANNUAL REPORT
                TO
           THE CONGRESS

         October 1, 2011 – March 31, 2012
TABLE OF CONTENTS

Inspector General’s Message ............................................................................................................................. i

The NCUA and Office of Inspector General Missions .............................................................................. 1

Introduction ............................................................................................................................................................ 2

NCUA Hightlights .................................................................................................................................................. 5

Federally Insured Credit Union Highlights ................................................................................................ 8

Legislative Highlights ......................................................................................................................................... 9

Office of the Inspector General .................................................................................................................... 10

Audit Activity ...................................................................................................................................................... 11

Investigative Activity ....................................................................................................................................... 20

Legislative and Regulatory Reviews .......................................................................................................... 23

Table I: Inspector General Issued Reports with Questioned Costs ............................................... 25

Table II: Inspector General Issued Reports with Recommendations that Funds be Put to
Better Use ............................................................................................................................................................. 26

Table III: Summary of OIG Activity October 1, 2011 through March 30, 2012 .......................... 27

Index of Reporting Requirements .............................................................................................................. 28

Appendix A: NCUA System Review Report (SEC OIG Report No. 478) ......................................... 29
OIG Semiannual Report                                                           October 1, 2011 – March 31, 2012




                              INSPECTOR GENERAL'S MESSAGE
                          TO THE NCUA BOARD AND THE CONGRESS

 As this reporting period came to a close, the Office of Inspector General (OIG) took a retrospective view
 of where the credit union system was two years ago, and where it is now. Two years ago, the National
 Credit Union Administration (NCUA) had only begun to sort out its options for overcoming the crisis
 facing the corporate system. At the same time, the agency was confronting hundreds of CAMEL code
 4 and 5 credit unions, 14 of which were over one billion dollars. Today, assets, shares, and return on
 assets have all increased, delinquencies and charge-offs have declined, and NCUA’s corporate
 resolution is moving forward as planned, with no interruption of service to members. Still, while the
 recovery of the credit union system that began in 2010 gains momentum, the overall economic climate
 remains uncertain and instability of the financial markets lingers. We recognize that, as the NCUA and
 the OIG transition to a post-crisis period, it is more critical than ever that our work continues to
 contribute to the agency’s obligation to operate as efficiently as possible and fulfill its responsibility to
 protect credit unions and their members from unacceptably risky actions.

 The OIG’s audit and evaluation work over the past several years, and the NCUA’s responsiveness to
 our many recommendations, reflect the positive and cooperative working relationship we established
 during the crisis. Since the inception of the crisis, the OIG has issued 18 Material Loss Reviews
 (MLRs). Our perspectives on the reasons for the losses to the National Credit Union Share Insurance
 Fund (NCUSIF) and, in some cases, credit union failures, were well received and, we believe, helped
 inform the NCUA, the Congress, and the public of the underlying circumstances of those losses and
 failures. With the abatement of the crisis, the OIG has seen—particularly during this reporting period--a
 significantly lighter workload of statutorily mandated MLRs. Consequently, we have been able to shift
 our focus to other challenges the NCUA currently faces, as reflected in our recent issuance of an audit
 report on NCUA’s Asset Management Assistance Center (AMAC). That audit focused on the internal
 controls over the Asset Recovery, Liquidations of Member Services, and Accounting Services divisions,
 respectively, within AMAC, and an evaluation of AMAC’s real estate owned (REO) activities. We
 placed particular emphasis on AMAC’s REO activities in Florida as a result of the liquidations of
 Norlarco Credit Union and Huron River Area Credit Union, due to their size and complexity. We
 reported on several material weaknesses related to AMAC’s REO valuation process and made specific
 recommendations to AMAC management.

 On the investigative side of the house, early in the reporting period we welcomed a new Director of
 Investigations, Michael Egan, who came to us after serving for 12 years as a Criminal Investigator at
 the United States Postal Service Office of Inspector General. Mr. Egan’s investigative skills were
 challenged during his first few weeks on board, when we received a referral from the NCUA Chairman
 requesting an investigation into an unlawful release of a 2010 NCUA examination report and CAMEL
 rating of the District Government Employees Federal Credit Union (DC FCU). Chairman Matz asked

                                                       i
OIG Semiannual Report                                                           October 1, 2011 – March 31, 2012


 for a full OIG investigation to determine which among the parties with access to the confidential
 examination information, whether NCUA or the credit union’s board or management, was responsible
 for the disclosure. The investigation determined conclusively that no NCUA employee was involved in
 the disclosure. Rather, the Report of Investigation noted that the leak most likely came from a DC FCU
 Board member. Building on the OIG’s ROI, the NCUA conducted its own investigation into the DC FCU
 Board member(s) allegedly responsible for the leak. On March 28, 2012, the NCUA issued an order
 prohibiting James M. Talbert from participating in the affairs of any federally insured credit union. The
 Prohibition Order cited Mr. Talbert for breaching his fiduciary duties in connection with his position at
 DC FCU by unlawfully disclosing non-public information.

 This case demonstrates the value of leveraging OIG investigative resources to uncover unlawful
 activities that might place the stability of the credit union system at risk. It also illustrates our ongoing
 commitment to help ensure integrity in the credit union industry and bring justice to those—whether
 NCUA employees or credit union officials—who might undermine that integrity.

 We look forward to continuing work with NCUA leadership, the Congress, and colleagues in the
 Inspector General community in helping maintain the stability and public confidence in the nation’s
 credit union system.




                                           William A. DeSarno
                                           Inspector General




                                                      ii
OIG Semiannual Report                                                      October 1, 2011 – March 31, 2012




                                       THE NCUA MISSION

     NCUA’s charge is to provide, through regulation and supervision, a safe and sound credit union
     system which promotes confidence in the national system of cooperative credit.




                        THE OFFICE OF INSPECTOR GENERAL MISSION

     The OIG promotes the economy, efficiency, and effectiveness of NCUA programs and
     operations, and detects and deters fraud, waste, and abuse, thereby supporting the NCUA’s
     mission of monitoring and promoting safe and sound federally insured credit unions.


     We accomplish our mission by conducting independent audits, investigations, and other
     activities, and by keeping the NCUA Board and the Congress fully and currently informed of our
     work.




                                                    1
OIG Semiannual Report                                                        October 1, 2011 – March 31, 2012




                                           INTRODUCTION

 The NCUA was established as an independent, federal regulatory agency on March 10, 1970. The
 agency is responsible for chartering, examining, supervising, and insuring federal credit unions. It also
 insures state-chartered credit unions that have applied for insurance and have met National Credit
 Union Share Insurance requirements. The NCUA is funded by the credit unions it supervises and
 insures. As of December 31, 2011, the NCUA was supervising and insuring 4,447 federal credit unions
 and insuring 2,647 state-chartered credit unions, a total of 7,094 institutions. This represents a decline
 of 142 federal and 103 state-chartered institutions since December 31, 2010, for a total decline of 245
 credit unions nationwide, primarily as a result of mergers and liquidations.




                                     Federally Insured Credit Unions


                  9000

                  8000

                  7000
                            3065
                                    2959      2840
                  6000                                   2750      2647
                  5000
                                                                                            FISCUs
                  4000                                                                      FCUs
                  3000
                            5036    4847      4714       4589      4447
                  2000

                  1000

                        0
                            2007    2008      2009       2010      2011




 The NCUA operates under the direction of a Board composed of three members. Board members are
 appointed by the President and confirmed by the Senate. They serve six-year terms. Terms are
 staggered, so that one term expires every two years. The Board is responsible for the management of
 the NCUA, including the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity
 Facility, the Community Development Revolving Loan Fund, and the Temporary Corporate Credit
 Union Stabilization Fund.




                                                     2
OIG Semiannual Report                                                       October 1, 2011 – March 31, 2012


 The NCUA executes its program through its central office in Alexandria, Virginia and regional offices in
 Albany, New York; Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and Tempe, Arizona. The
 NCUA also operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
 refer to the NCUA organizational chart below.




                                                    3
OIG Semiannual Report                                                          October 1, 2011 – March 31, 2012


     The NCUA Board adopted its 2012 budget of $236,854,786 on November 17, 2011. The Full-
     Time Equivalent (FTE) staffing authorization for 2012 is 1,259.50 representing an increase of 33
     FTEs from 2011.




                                                NCUA Budget Dollars
                                  250


                                  200
                  Millions




                                  150


                                  100


                                  50


                                   0
                                         2008   2009         2010       2011         2012




                                                NCUA Authorized Staff
                                  1300
                                  1250
                                  1200
                Employees (FTE)




                                  1150
                                  1100
                                  1050
                                  1000
                                  950
                                  900
                                  850
                                         2008   2009         2010       2011         2012




                                                         4
OIG Semiannual Report                                                       October 1, 2011 – March 31, 2012




                                        NCUA HIGHLIGHTS

 NCUA Appointed Telesis Community Credit Union Conservator
 On March 23, 2012, the California Department of Financial Institutions placed Telesis Community
 Credit Union (Telesis) into conservatorship and immediately appointed the NCUA as conservator.
 Telesis is a state-chartered, federally insured credit union headquartered in Chatsworth, California.
 Deposits at Telesis are protected by NCUA up to $250,000. Administered by the NCUA, the NCUSIF
 has the backing of the full faith and credit of the U.S. Government.

 The state placed Telesis into conservatorship due to a declining financial condition. During the
 conservatorship, service to Telesis’ members will continue without interruption, and members can
 continue to conduct normal financial transactions.

 Originally chartered in 1965, Telesis’ field of membership currently includes, among others, various
 employer groups and individuals who live, work, worship, or go to school in the San Fernando and
 Santa Clarita valleys or in Ventura County. With assets reported at $318.3 million in the latest Call
 Report, Telesis has more than 37,600 members. The Federal Credit Union Act authorizes the NCUA
 Board to accept appointment as conservator when necessary to conserve the assets of a federally
 insured credit union, protect members’ interests, or protect the NCUSIF. Telesis is the third federally
 insured credit union placed into conservatorship in 2012.

 NCUA National Credit Union Share Insurance Fund Ends 2011 in Stronger Position
 The NCUA Board convened its second open meeting of 2012 at the agency’s headquarters in
 Alexandria, Virginia on March 15, 2012, and received an update on the performance of the NCUSIF.
 The NCUSIF ended 2011 in a stronger position as a result of fewer losses, portfolio growth, and a
 decline in at-risk credit unions, among other factors. As a result, NCUA transferred $278.6 million in
 equity from the NCUSIF to the Temporary Corporate Credit Union Stabilization Fund (Stabilization
 Fund). The Federal Credit Union Act requires NCUA to transfer any NCUSIF equity above the normal
 operating level of 1.30 percent at year-end as long as the Stabilization Fund has outstanding
 borrowings from the U.S. Treasury.

 NCUA calculated the 1.30 percent equity ratio for 2011 on an insured share base of $795.3 billion. By
 comparison, the NCUSIF equity ratio at the end of 2010 stood at 1.28 percent on an insured share
 base of $757.9 billion. The growth in credit union insured shares for 2011 was nearly 5 percent.
 The value of the NCUSIF portfolio grew about 4 percent during 2011 to close the year with a value of
 $10.7 billion.

 Other positive, year-over-year trends contained in the 2011 year-end NCUSIF report presented to the
 Board included:

     •   Credit union failures dropped by more than 40 percent to 16 failures from 28 failures.
     •   The total amount of losses associated with credit union failures dropped 75 percent to $55
         million from $221 million.
     •   The total number of CAMEL code 3, 4, and 5 credit unions dropped to 2,150 from 2,192.
     •   The total assets of CAMEL code 4 and 5 credit unions fell 32 percent to $29.4 billion from
         $43.3 billion.

                                                    5
OIG Semiannual Report                                                      October 1, 2011 – March 31, 2012


     •   The total assets of CAMEL code 3 credit unions decreased 9 percent to $142.5 billion from
         $156.7 billion.

 On the strength of these positive trends and other factors, NCUA’s reserving methodology allowed for
 a reduction in the NCUSIF’s reserves by 51 percent to $606.6 million at year-end 2011 from $1.2
 billion at year-end 2010.

 In light of the steady improvements, NCUA did not collect an NCUSIF premium in 2011. At the open
 NCUA Board meeting in November 2011, Chairman Matz had announced a reduction in the projected
 NCUSIF premium range for 2012 down to 0-6 basis points.

 NCUA Settles Claims Against HSBC
 On March 12, 2012, NCUA and HSBC reached a settlement regarding potential claims relating to the
 sale of residential mortgage-backed securities to five failed wholesale credit unions. HSBC agreed to
 pay NCUA $5.25 million to reduce the losses associated with the five failures. The settlement with
 HSBC does not admit fault on their part. NCUA will use the net proceeds from the settlement to
 further reduce assessments being charged to credit unions to pay for the losses.

 NCUA to date has received a total of $170.75 million in settlement proceeds. Losses from wholesale
 credit union failures are paid from the Stabilization Fund. Expenditures from this fund must be repaid
 through assessments against all federally insured credit unions. Thus, recoveries such as the HSBC
 settlement reduce the amount of future assessments on credit unions.

 Since 2009, NCUA has assessed credit unions $3.3 billion to pay for losses associated with the five
 corporate credit failures.    Given the current settlement proceeds, projections for remaining
 assessments range between $1.8 billion and $6.1 billion that must be repaid by 2021. Corporate
 credit unions are wholesale credit unions that provide services to retail credit unions, which in turn
 serve consumers. Consumer credit unions rely on corporate credit unions for services such as check
 clearing, electronic payments, and investments.

 NCUSIF Earns Clean Audit for 2011
 The NCUA, on February 16, 2012, released 2011 audited financial reports for the agency’s four
 permanent funds (the NCUSIF; the Central Liquidity Facility (CLF); the Community Development
 Revolving Loan Fund (CDRLF) and the Operating Fund). All four funds received unqualified or “clean”
 audit opinions, including the NCUSIF that protects deposits up to $250,000 for more than 91 million
 consumers at federally insured credit unions. KPMG LLP completed the audits of all four funds.
 KPMG will issue an opinion about the 2011 financial statements for the Stabilization Fund in the
 coming months. The Stabilization Fund earned a clean audit for 2010. The four financial reports are
 available at:

 www.ncua.gov/about/Leadership/CO/OIG/Pages/AuditRpt.2012.aspx.

 New NCUA Policy Will Keep Credit Union Members in Their Homes
 At its January 26, 2012, Board meeting, the NCUA Board approved a proposed rule and guidance on
 troubled debt restructuring (TDR) to facilitate mortgage modifications and assist credit union members
 in keeping their homes. In a proposed rule and Interpretative Ruling and Policy Statement on TDRs,
 the Board sought to balance the need to effectively balance appropriate loan workout programs for
 financially distressed credit union members with potential safety-and-soundness considerations in
 order to help keep more families in their homes.

                                                   6
OIG Semiannual Report                                                        October 1, 2011 – March 31, 2012



 Specifically, the TDR proposal:

     •   Establishes consistent standards for the management of loan workout arrangements that assist
         borrowers;
     •   Streamlines regulatory reporting requirements related to TDR loans by removing manual
         tracking and eliminating confusion between TDRs and other loan modifications; and
     •   Reaffirms the existing policy and practice with the credit union industry of placing loans on
         nonaccrual status when they reach 90 days past due.

 Credit unions will be able to modify loans without having to immediately classify TDR loans as
 delinquent. Additionally, credit unions will not have to track each TDR loan’s performance manually
 for six months, as is the current requirement. In developing a written policy in this area, the proposed
 TDR guidance would allow credit union boards and management to consider similar parameters as
 those previously established by the Federal Financial Institutions Examination Council (FFIEC).

 NCUA issued the proposed guidance on February 1, 2012, with a 30-day comment period. Thirteen
 Federally Insured Credit Unions (FICUs), an accounting firm, a non-profit consumer advocate, and two
 industry trade groups supported the elimination of the current requirement to track and report TDRs as
 delinquent until six consecutive payments. Several commenters noted the change was a needed
 improvement, as the current reporting requirement has been problematic for many FICUs and an
 obstacle to helping members.

 NCUA, NTEU Sign Collective Bargaining Agreement
 On November 1, 2011, NCUA Chairman Debbie Matz and National Treasury Employees Union
 (NTEU) President Colleen Kelley signed a new, three-year collective bargaining agreement (CBA).
 NCUA and NTEU worked collectively to reach a full agreement in the face of difficult national
 economic circumstances. The two sides discussed and negotiated a total of 27 articles on major topics
 such as employee pay and benefits, travel expense reimbursement, promotions, employee rights,
 employee time and leave, and health and wellness.

 The agreement modernizes the employee benefits package to make it competitive with the other
 federal financial regulatory agencies as required by Congress. To offset the costs of the benefits, the
 employees agreed to a pay freeze that is not statutorily applied to NCUA. The trade of pay for benefits
 had a neutral effect on the 2012 budget.

 The CBA also revised the employee relocation package to attract employees to higher-graded
 positions and management positions. The goal of these provisions was to improve succession
 planning as more managers become retirement eligible. Finally, the CBA streamlines administrative
 and reporting processes to maximize employee and management productivity.

 NTEU represents approximately 950 of NCUA’s nearly 1,200 employees.




                                                    7
OIG Semiannual Report                                                        October 1, 2011 – March 31, 2012




                        FEDERALLY INSURED CREDIT UNION HIGHLIGHTS

 Credit unions submit quarterly call reports (financial and operational data) to the NCUA. An NCUA staff
 assessment of the December 31, 2011, quarterly call reports submitted by all federally insured credit
 unions found that key financial indicators are mixed.

 Key Financial Indicators Mixed
 Looking at the December 31, 2011 quarterly statistics for major balance sheet items and key ratios
 shows the following for the nation’s 7,094 federally insured credit unions: assets grew 5.19 percent; net
 worth to assets ratio increased from 10.06 to 10.23 percent; the loan to share ratio decreased from
 71.81 percent to 69.07 percent. However, the delinquency ratio decreased from 1.76 to 1.60 percent;
 and credit union return on average assets increased from .50 percent to .68 percent.

 Savings Shifting to Regular Shares
 Total share accounts increased 5.21 percent. Regular shares increased 10.95 percent. Regular
 shares comprise 29.57 percent of total share accounts; share certificates comprise 24.67 percent;
 money market shares comprise 22.86 percent; share draft accounts comprise 12.19 percent; and all
 other share accounts comprise 10.72 percent.

 Loan Volume Flat
 Loans increased 1.20 percent resulting in an increase in total loans by $6.8 billion. Total net loans of
 $571 billion comprise 59.42 percent of credit union assets. First mortgage real estate loans are the
 largest single asset category with $232.4 billion accounting for 40.67 percent of all loans. Other real
 estate loans of $80.5 billion account for 14.09 percent of all loans. Used car loans of $106.7 billion
 were 18.68 percent of all loans, while new car loans amounted to $58.2 billion or 10.2 percent of total
 loans. Credit card loans totaled $37.4 billion or 6.54 percent of total loans and other loans totaled
 $56.1 billion for 9.83 percent of total loans.




                                                    8
OIG Semiannual Report                                                         October 1, 2011 – March 31, 2012




                                     LEGISLATIVE HIGHLIGHTS

 Senator Udall Reintroduces the Small Business Lending Enhancement Act
 On March 22, 2012, Sen. Mark Udall (D-Colo.) reintroduced the Small Business Lending
 Enhancement Act as S. 2231. Identical to S. 509 and H.R. 1418, the bill currently has 21 co-
 sponsors. It would allow NCUA to raise a credit union’s MBL cap from 12.25 percent of assets to 27.5
 percent if:

     •   it is well capitalized (currently, have at least a 7 percent net worth ratio);
     •   it has at least five years of MBL experience;
     •   it is at or above 80 percent of current authority for at least one year before application; and
     •   it has demonstrated sound underwriting and servicing based on historical performance and
         strong management.

 A credit union allowed to pursue the higher MBL cap would be limited to 30 percent growth annually in
 its MBL portfolio.

 NCUA Testifies on Exam Reform Bill
 On February 1, 2012, NCUA Executive Director David Marquis testified before the House Financial
 Services Subcommittee on Financial Institutions and Consumer Credit on H.R. 3461, the Financial
 Institutions Examination Fairness and Consumer Credit Reform Act. Marquis noted that NCUA has
 already adopted a number of examination practices that fall in line with the legislation. Marquis
 testified that, consistent with H.R. 3461, NCUA has prioritized the timely delivery of findings, so that
 exams are promptly completed and credit unions may quickly address small issues before they grow
 into big ones. He noted NCUA’s zero-tolerance policy to prevent retaliation against credit unions that
 appeal their findings. Marquis also pointed out that every NCUA exam report contains a cover page
 that explains a credit union’s appeal rights and references to NCUA’s policy on appeals and non-
 retaliation.

 Marquis’ testimony also identified significant unintended consequences of H.R. 3461, including
 increased administrative costs, higher risks for the NCUSIF, and the imposition of a one-size-fits-all
 approach in the examination of financial institutions.

 Senate Introduces S. 2105, the Cybersecurity Act of 2012.
 On February 14, 2012, Senators Lieberman, Collins, Rockefeller, and Feinstein introduced S. 2105,
 the Cybersecurity Act of 2012. The bill requires the Department of Homeland Security (DHS) to
 combine its cybersecurity programs into a unified office called the National Center for Cyber-Security
 and Communications. The bill further grants DHS the authority to establish standardized cybersecurity
 protocols for private companies engaged in the operation of the nation’s critical infrastructure. The bill
 also calls for increased sharing of cyber-threat information between private companies and the federal
 government, and replaces the industry’s longstanding regulator on issues of cybersecurity—the
 Department of Treasury—with a new agency, DHS. Finally, the bill includes significant revisions to
 the Financial Information Security Management Act.




                                                      9
OIG Semiannual Report                                                      October 1, 2011 – March 31, 2012




                            OFFICE OF THE INSPECTOR GENERAL

 The Office of the Inspector General was established at the NCUA in 1989 under the authority of the
 Inspector General Act of 1978, as amended. The staff consists of the Inspector General, Deputy
 Inspector General, Counsel to the Inspector General, Director of Investigations, three Senior Auditors,
 Senior Information Technology Auditor, and Office Manager.

 The Inspector General reports to, and is under the general supervision of, the NCUA Board. The
 Inspector General is responsible for:
         1. Conducting, supervising, and coordinating audits and investigations of all NCUA programs
            and operations;
         2. Reviewing policies and procedures to ensure efficient and economic operations as well as
            preventing and detecting fraud, waste, and abuse;
         3. Reviewing existing and proposed legislation and regulations to evaluate their impact on the
            economic and efficient administration of agency programs; and
         4. Keeping the NCUA Board and the Congress apprised of significant findings and
            recommendations.

                                 NCUA OIG ORGANIZATIONAL CHART




                                                   10
OIG Semiannual Report                                                          October 1, 2011 – March 31, 2012




                                           AUDIT ACTIVITY

     AUDIT REPORTS ISSUED

 OIG-11-12 – November 10, 2011
 Independent Evaluation of the NCUA’s Compliance with the Federal Information Security Management Act
 (FISMA) 2011
 The Office of Inspector General (OIG) for the National Credit Union Administration (NCUA)
 engaged Richard S. Carson and Associates, Inc. (Carson Associates), to independently evaluate its
 information systems and security program and controls for compliance with the Federal Information
 Security Management Act (FISMA), Title III of the E-Government Act of 2002.

 Carson Associates evaluated NCUA’s security program through interviews, documentation reviews,
 technical configuration reviews, and sample testing. We evaluated NCUA against standards and
 requirements for federal government agencies such as those provided through FISMA, the
 Government Accountability Office’s Federal Information System Controls Audit Manual (FISCAM),
 National Institute of Standards and Technology (NIST) Special Publications (SPs), and Office of
 Management and Budget (OMB) memoranda.

 NCUA has worked to further strengthen its information security and privacy programs during Fiscal
 Year (FY) 2011. NCUA’s accomplishments during this period include:

         •   Improved its security configuration for servers and desktops;
         •   Improved its ability to establish a fully integrated continuous monitoring program by
             implementing automated software, which includes intrusion detection, vulnerability
             scanning, and logging tools;
         •   Developed and implemented policies and procedures for overseeing external service
             providers;
         •   Improved its contingency planning program for its FISMA systems;
         •   Established, implemented and enforced security baselines for its servers and desktop
             devices;
         •   Improved its Plan of Action and Milestone process;
         •   Provided Business Impact Assessments (BIAs) for its FISMA systems and is currently
             extending the BIA study down to its regional/field offices;
         •   Improved its procedures for ensuring terminated users and inactive user accounts are
             disabled or removed from NCUA systems; and
         •   Implemented continuing education requirements for its information technology
             employees.

     We identified two areas remaining from last year’s FISMA evaluation that NCUA officials need
     to address. NCUA needs to:

         •   Improve remote access controls; and
         •   Improve its privacy program (i.e., review its use of Personally Identifiable Information
             and Social Security Numbers).



                                                      11
OIG Semiannual Report                                                        October 1, 2011 – March 31, 2012


     In addition, we identified four new findings this year where NCUA could improve its information
     technology security controls. Specifically, NCUA needs to:

         •   Improve its continuous monitoring program;
         •   Improve its security authorization packages;
         •   Improve its contingency planning program; and
         •   Improve its intrusion detection policies and procedures.

 OIG-11-13 – December 27, 2011
 NCUA Financial Statement Audit of the Temporary Corporate Credit Union Stabilization Fund (TCCUSF)
 Our contracting audit firm, KPMG LLP, issued its opinion on the 2010 financial statements of the
 National Credit Union Administration Temporary Corporate Credit Union Stabilization Fund. The
 auditors found that the financial statements presented fairly the financial position of the agency fund as
 of December 31, 2010 and issued an unqualified opinion on the TCCUSF’s financial statements.

 OIG-12-01/02/03/04 – February 16, 2012
 NCUA Financial Statements Audit 2011: Operating Fund, Central Liquidity Facility, Community
 Development Revolving Loan Fund, and Share Insurance Fund
 Our contracting audit firm, KPMG LLP, issued opinions on the 2011 financial statements of the National
 Credit Union Administration Operating Fund, Central Liquidity Facility, Community Development
 Revolving Loan Fund, and the National Credit Union Share Insurance Fund. The auditors found that the
 financial statements presented fairly the financial position of the agency’s funds as of December 31,
 2011.
 The NCUA Operating Fund (OIG-12-01) was established as a revolving fund managed by the NCUA Board
 for the purpose of providing administration and service to the federal credit union system. The auditors
 issued an unqualified opinion on the Operating Fund’s financial statements. The fund’s total assets
 for 2011 were $79.6 million, up from $75.6 million in 2010.
 The Central Liquidity Facility (OIG-12-02) was established as a mixed ownership government corporation
 managed by the NCUA Board to improve general financial stability by meeting the liquidity needs of
 credit unions. The auditors issued an unqualified opinion on the Central Liquidity Facility’s (CLF)
 financial statements. The CLF’s total assets for 2011 were $2.1 billion, up from $2 billion in 2010.
 The Community Development Revolving Loan Fund’s (OIG-12-03) purpose is to stimulate economic
 activities in the communities served by low-income credit unions. This in turn will result in increased
 income, ownership and employment opportunities for low-wealth residents and other economic growth.
 The auditors issued an unqualified opinion on the Fund’s financial statements. The Community
 Development Revolving Loan Fund’s total assets for 2011 were $17.1 million, unchanged from 2010.
 The National Credit Union Share Insurance Fund (OIG-12-04) was established as a revolving fund
 managed by the NCUA Board to insure member share deposits in all Federal credit unions and
 qualifying state credit unions. The auditors issued an unqualified opinion on the Share Insurance
 Fund’s financial statements. The Fund’s total assets for 2011 were 11.7 billion, up from $11.1 billion in
 2010.




                                                     12
OIG Semiannual Report                                                        October 1, 2011 – March 31, 2012


 OIG-12-05 – February 29, 2012
 Material Loss Review of Vensure Federal Credit Union
 The NCUA OIG contracted with Crowe Horwath LLP (Crowe) to conduct a Material Loss Review (MLR)
 of Vensure Federal Credit Union (Vensure). Although the anticipated loss to the National Credit Union
 Share Insurance Fund (NCUSIF) for Vensure does not meet the statutory loss threshold to require a
 MLR, we identified the circumstances surrounding the failure of Vensure to be unusual in nature and
 therefore determined a MLR should be performed. We reviewed Vensure to: (1) determine the cause
 of the failure and resulting loss to the NCUSIF, (2) assess NCUA’s supervision of the credit union, and
 (3) make appropriate recommendations to prevent future losses.
 Our review determined Vensure failed due to the seizure of funds from its largest depositor due to: (1)
 the member’s involvement in processing on-line gambling transactions; (2) exposure to excessive
 amounts of risk by Vensure’s management and Board due to its affiliation with on-line gambling
 business settlement activity; and (3) an overall weak business model. In addition, we determined
 NCUA Region I examiners could have prevented or mitigated the loss to the NCUSIF had they
 adequately identified and more aggressively pursued the nature of Vensure’s primary source of
 income, ACH related fee activity, which was later determined to be tied to a criminal violation of the
 Unlawful Internet Gambling Enforcement Act.
 This report includes numerous observations and lessons learned, as well as makes two
 recommendations we believe will help examiners as they perform risk-focused examinations. NCUA
 Management agreed with our recommendations and the actions taken and planned will address the
 issues identified in this report.

 OIG-12-06 –March 19, 2012
 Audit of the NCUA’s Asset Management Assistance Center
 The NCUA OIG engaged Crowe Horwath LLP, to independently conduct a performance audit on
 NCUA’s Asset Management Assistance Center (AMAC) to determine the efficiency and effectiveness
 of: 1) policies/procedures and internal controls for asset recovery, liquidations of member services, and
 accounting services; 2) payments of share accounts including closing out the account or return checks
 that occur; and 3) valuation process and disposal of property and assets.
 Our audit focused on the internal controls over the Asset Recovery, Liquidations of Member Services,
 and Accounting Services divisions within AMAC. We evaluated payments of share accounts, closing
 out the accounts or return checks that occur, and the valuation process and disposal of property and
 assets. One of the main areas of focus of our audit was related to the liquidations of Norlarco Credit
 Union and Huron River Area Credit Union. We considered this a major focus of our audit due to the
 size and complexity of these liquidations. Therefore, we included a section in this report analyzing the
 results of these liquidations.
 Based on our analysis, we found deficiencies in the valuation process of real estate owned (REO) by
 AMAC. Specifically, AMAC did not perform valuations on these properties in accordance with industry
 standards and did not always maintain proper support for the valuations that were completed. In
 addition, we determined AMAC did not formally complete a cost to carry analysis on REO. We believe
 AMAC should have completed this type of analysis as part of its determination regarding whether to sell
 or hold real estate.
 We made nineteen recommendations in the report to improve AMAC operations. Management agreed
 and has taken or plans to take corrective action on each of the recommendations.




                                                    13
OIG Semiannual Report                                                         October 1, 2011 – March 31, 2012


     AUDITS IN PROGRESS

 NCUA Temporary Corporate Credit Union Stabilization Fund Financial Statement 2011
 Our current contracting audit firm, KPMG, is working on the 2011 financial statements of the NCUA
 Temporary Corporate Credit Union Stabilization Fund (TCCUSF).
 The TCCUSF, established in 2009, allows NCUA to borrow money from the Treasury to pay for
 corporate credit union losses, and then pay back the Treasury over time with funds obtained from
 assessments on federally insured credit unions. Due to extraordinary circumstances related to the
 complexity of this area, the audit of these financial statements has taken longer than anticipated. We
 expect to issue our report by late June 2012.

 Material Loss Review of O.U.R. Federal Credit Union
 The Federal Credit Union Act requires the NCUA OIG to conduct a MLR of an insured credit union if
 the loss exceeds $25 million. The Dodd-Frank Wall Street Reform and Consumer Protection Act
 requires the OIG to assess all losses to the NCUSIF under the $25 million threshold and determine if
 unusual circumstances warrant a MLR. We determined that O.U.R. credit union met this criterion and
 elected to conduct a MLR.
 We are in the process of conducting a MLR on O.U.R. FCU. We will review O.U.R. FCU to (1)
 determine the cause(s) of the credit union’s failure and the resulting loss to the NCUSIF; and (2)
 assess NCUA’s supervision of the credit union. To achieve these objectives, we will analyze NCUA
 examination and supervision reports and related correspondence; interview management and staff
 from NCUA Regional offices; and review NCUA guidance, policies and procedures, NCUA Call
 Reports, and Financial Performance Reports.

 Review of NCUA’s Controls over Sensitive and Proprietary Information
 The OIG is initiating a review of NCUA’s Controls over Sensitive and Proprietary Information
 Associated with the Financial Stability Oversight Council (FSOC) and FSOC Member Agencies.
 The Dodd-Frank Wall Street Reform and Consumer Protection Act created the Council of Inspectors
 General on Financial Oversight (CIGFO), in part, to evaluate the effectiveness and internal operations
 of the FSOC. On December 8, 2011, CIGFO members approved a proposal to convene a working
 group to review FSOC’s control of sensitive and proprietary information. We are conducting this review
 - concurrently with reviews by the other CIGFO members - in support of the CIGFO’s ‘Audit of the
 Financial Stability Oversight Council’s Controls over Sensitive and Proprietary Information’. The results
 from our report will be incorporated into the CIGFO final report.
 Our objective is to review NCUA’s policies, procedures, and practices for ensuring FSOC-related
 information that it collects, shares, or deliberates is adequately protected from unauthorized disclosure.
 Depending on our findings, we may elect to issue a separate report to NCUA Management.




                                                       14
OIG Semiannual Report                                                         October 1, 2011 – March 31, 2012


 Review of NCUA’s Examination Process for Small Credit Unions
 The OIG is initiating a review of NCUA’s examination process for small credit unions and the ability to
 ensure credit unions can question examination results.
 In response to a February 10, 2012, request from the Chairman of the Senate Committee on Banking,
 Housing, and Urban Affairs, we are initiating an audit of the NCUA examination process for small credit
 unions. Our objectives, consistent with the request, are to determine (1) the NCUA’s examination
 process for small credit unions, including examination timelines and how NCUA ensures consistency in
 the administration of exams across the country; and (2) the ability of insured credit unions to question
 examination results, such as through NCUA’s Ombudsman, the appeal process, or informal channels,
 and the frequency and success of such appeals.

 Review of NCUA’s Red Flag Reports
 The OIG is initiating a review of NCUA’s document of resolution follow-up process.               This is a
 discretionary audit from the NCUA OIG’s 2012 Annual Audit Plan.
 A red flag is an indicator/warning sign of a potential problem or issue. During our material loss reviews,
 we analyzed 5300 data that highlighted areas of increased risk that may have helped examiners
 identify potential safety and soundness issues. NCUA uses red flag reports to target credit unions that
 have potential high risk areas.
 The objective of this audit is to determine whether examiners are identifying and addressing high risk
 areas.

 SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED
 As of March 31, 2012, below is a list of OIG reports with unimplemented recommendations where
 management has agreed to implement corrective action but has not completed. This information is
 based on (1) information supplied by NCUA Office of Examination and Insurance and (2) the OIG’s
 report recommendation tracking system.
 Report Number, Title and Date
 OIG-10-20 OIG Capping Report on Material Loss Reviews, November 23, 2010
 Significant Recommendations Open and Brief Summary
 On November 23, 2010 the OIG issued report #OIG-10-20 titled OIG Capping Report on Material Loss
 Reviews. There are 11 open recommendations related to the examination and supervision procedures
 for overseeing credit unions. These issues include documentation, monitoring, ratings, call reports,
 third party relationships, due diligence, exam procedures, quality control reviews and regulatory
 guidance. We have determined that NCUA has made significant progress and is in various stages of
 implementing corrective action on all 11 of these recommendations.




                                                    15
OIG Semiannual Report                                                        October 1, 2011 – March 31, 2012


     REPORT ON CREDIT UNION LOSSES UNDER MATERIALITY LEVEL OF $25 MILLION

     Section 988 of the Dodd-Frank Wall Street Reform and Consumer Protection Act did two things
     relative to MLRs of credit unions which incurred a loss to the NCUSIF.
     First, the threshold for a mandated MLR was raised to $25 million or greater loss to the NCUSIF
     starting on the implementation date of the Act (July 21, 2010) and going forward.
     Second, the NCUA OIG is now required to (1) perform limited reviews of all credit union failures
     and/or losses to the NCUSIF under the threshold to assess whether an in-depth review
     (consistent with the scope of a MLR) is warranted; and (2) report to the NCUA Board and the
     Congress every 6 months on the results of the limited reviews and the timeframe for performing
     any in-depth reviews we determine are necessary.
     This report on losses not reaching $25 million covers the six month period from October 1, 2011
     to March 31, 2012. For all losses to the NCUSIF under the MLR threshold, we determined (1)
     why NCUA initiated assistance and (2) whether any unusual circumstances existed that might
     warrant an in-depth review of the loss.
     For each limited review, we performed procedures that included but were not limited to: 1)
     obtaining and analyzing the regulator’s supervisory memorandum and other pertinent
     documents; 2) preparing a schedule of CAMEL ratings assigned to the institution through full
     scope or other examinations during the five years preceding the failure; 3) conducting interviews
     as needed; 4) inquiring about any investigative actions that were taken, planned, or considered
     involving credit union officials or others; and 5) analyzing supervisory history and other review
     methods.
     We conducted limited reviews of eight failed credit unions that incurred losses to the NCUSIF
     under $25 million between October 1, 2011 and March 31, 2012. Based on those limited
     reviews, we determined that two of the losses warranted conducting additional work. For the six
     failed credit unions for which we do not intend to conduct additional work, we concluded that
     either 1) no unusual circumstances presented themselves in our review, or 2) we had already
     addressed the reasons identified for failure in recommendations to the agency in our Material
     Loss Review Capping report or other MLR reports.
     The chart below provides details on the eight credit union losses to the NCUSIF of less than $25
     million. It provides details on the credit union such as supervision, date of failure, estimated
     loss to the NCUSIF, and grounds for conservatorship, merger, or other factors. The chart also
     provides our decision whether to terminate or proceed with an MLR of the credit union.




                                                    16
OIG Semiannual Report                                                             October 1, 2011 – March 31, 2012


                                            Date of         Est. Loss to          Grounds for the NCUA
    Decision*    Credit Union     Region
                                            Failure           NCUSIF                  Appointment
                                                                           Insolvent due to unsafe and
                                                                           unsound management practices that
                                                                           included poor recordkeeping,
                                                                           significantly underfunded Allowance
                                                                           for Loan and Lease Losses account,
                  St. James                                                escalating delinquency, refusal to
   Terminate     AME Federal        II     11/17/2011        $261,131      recognize and charge-off non-
                 Credit Union                                              performing loans, poor loan
                                                                           underwriting, weak collection efforts,
                                                                           high operating expenses, lack of
                                                                           profitability, weak and declining
                                                                           capital, and ineffective and
                                                                           uncooperative management.
                                                                           Insolvent due to the unsafe and
                                                                           unsound management practice of
                                                                           allowing loan concentration in
                     BCT                                                   excess of regulatory limits. The
                                                                           board, management, and
   Terminate     Federal Credit     I      11/30/2011        $431,000
                                                                           supervisory committee failed to
                    Union                                                  perform appropriate due diligence
                                                                           relative to the loan concentration
                                                                           and comply with NCUA examination
                                                                           recommendations.
                                                                           Insolvent due to unsafe and
                                                                           unsound management practices
                                                                           related to suspected fraud
                    O.U.R.
    Proceed                                                                committed by a former manager.
                 Federal Credit     V      12/2/2011        $3,740,000
    with MLR                                                               The FBI opened an investigation into
                    Union
                                                                           the matter as credit union shares
                                                                           were out of balance by nearly $1.6
                                                                           million.
                                                                           Insolvent due to management
                                                                           operating the credit union in an
                                                                           unsafe and unsound manner
                                                                           including a serious conflict of interest
                  Birmingham
                                                                           with the credit union’s sponsor, a
                   Financial
   Terminate                       III     12/15/2011         $41,319      continuous lack of action by
                 Federal Credit
                                                                           management to address issues,
                     Union
                                                                           persistent non-compliance with
                                                                           established timelines for submitting
                                                                           reports, and problems with the credit
                                                                           union’s books and records.




                                                       17
OIG Semiannual Report                                                           October 1, 2011 – March 31, 2012


                                                                         Insolvent due to management
                                                                         allowing high delinquency and loan
                 Kunia Federal
   Terminate                       V      12/16/2011        $1,210,000   losses stemming from a weak loan
                  Credit Union
                                                                         portfolio. Any NCUSIF assistance
                                                                         would exceed the cost of a merger.
                                                                         Insolvent due to management
                                                                         allowing the credit union to become
                                                                         critically undercapitalized. The
                                                                         former CEO operated the credit
                                                                         union in an unsafe and unsound
                                                                         manner through lending activities
                 Eastern New
    Proceed                                                              involving CUSOs that he was
                 York Federal      I       1/27/2012        $3,600,000
    with MLR                                                             secretly involved with. The CEO
                 Credit Union
                                                                         involved the credit union in an
                                                                         expensive branch expansion and
                                                                         questionable member business
                                                                         lending practices. The potential for
                                                                         fraud exists related to the CEO’s
                                                                         CUSO activities.
                                                                         Insolvent due to embezzlement and
                 H.B.E. Credit
   Terminate                      IV       2/06/2012        $332,061     fictitious accounting records by a
                    Union
                                                                         former manager.
                                                                         Insolvent due to deteriorated
                                                                         financial condition stemming from
                                                                         substandard underwriting, sub-prime
                 HHA Federal                                             loans, excessive delinquency, and
   Terminate                      IV       3/28/2012         $50,254
                 Credit Union                                            weak loan internal controls.
                                                                         Management also allowed
                                                                         questionable member business
                                                                         lending practices.



                             DECISIONS REGARDING LOSSES LESS THAN $25 MILLION
     *Criteria for the decisions included: (1) dollar value and/or percentage of loss; (2) institutions
     background, such as charter type and history, geographic location, affiliations, business
     strategy; (3) uncommon cause of failure based on prior MLR findings; (4) unusual supervisory
     history, including the nature and timing of supervisory action taken, noncompliance with
     statutory examination requirements, and/or indications of rating disagreements between the
     state regulator and NCUA; and (5) other, such as apparent fraud, request by NCUA Chairman
     or management, Congressional interest, or IG request.




                                                       18
OIG Semiannual Report                                                        October 1, 2011 – March 31, 2012


 PEER REVIEWS

 OCTOBER 1, 2011 THROUGH MARCH 31, 2012
 Government Auditing Standards require audit organizations that perform audits and attestation
 engagements of federal government programs and operations undergo an external peer review every
 three years. The objectives of an external peer review include a review of an audit organization’s
 system of quality control to determine not only the suitability of the design, but also whether the audit
 organization is in compliance with its quality control system so as to provide reasonable assurance the
 audit organization conforms to applicable professional standards.

 EXTERNAL PEER REVIEW OF NCUA OIG OFFICE OF AUDIT
 Although the NCUA OIG did not undergo an external peer review during the current semiannual period,
 the U.S. Securities and Exchange Commission (SEC) OIG completed our most recent peer review on
 May 7, 2010 for the three-year period ending October 31, 2009. The SEC OIG issued its report entitled
 NCUA System Review and rendered the opinion that the system of quality control for the NCUA OIG,
 Office of Audit, was suitably designed and complied with, thus providing reasonable assurance the
 system of controls conformed with applicable professional standards in all material respects. As a
 result, we received a peer rating of pass. In addition, we have no outstanding recommendations from
 this external peer review. A copy of this most recent peer review report is included herein as Appendix
 A.

 EXTERNAL PEER REVIEW OF NATIONAL LABOR RELATIONS BOARD OIG OFFICE OF AUDIT
 The NCUA OIG completed a peer review of the National Labor Relations Board (NLRB) OIG. On
 October 31, 2011, we issued an external peer review report for the audit function of the NLRB OIG for
 the three year period ended September 30, 2011. The NLRB received a rating of pass and has no
 outstanding recommendations related to the peer review report




                                                    19
OIG Semiannual Report                                                        October 1, 2011 – March 31, 2012




                                    INVESTIGATIVE ACTIVITY

     In accordance with professional standards and guidelines established by the United States
     Department of Justice, the OIG Office of Investigations conducts investigations of serious or
     criminal misconduct on the part of NCUA employees and contractors to ensure a working
     environment of high integrity. Our investigations may involve possible violations of agency
     regulations and policies, as well as Federal criminal law, and other statutes and regulations.

     In addition, the Office of Investigations receives complaints from credit unions and their
     members which involve NCUA employee program responsibilities. We examine these
     complaints and determine if there is any indication of NCUA employee misconduct. If not, we
     refer the complaints to the NCUA Office of Consumer Protection (OCP) or the appropriate
     regional office for response.

     OIG HOTLINE CONTACTS
     The OIG maintains a 24-hour toll free hotline to enable employees and citizens to call in and
     provide information regarding potential fraud, waste, and abuse or mismanagement in the
     agency’s programs and/or operations. Additionally, the OIG office receives complaints in its off-
     site post office box, and through electronic mail and facsimile transmission. All information
     received from any of these sources is referred to as a hotline contact. The OIG hotline program
     is administered by the OIG Office Manager, under the direction of the Director of Investigations.
     The majority of hotline contacts are from consumers seeking help with problems encountered
     within their respective credit unions. These contacts are referred to OCP and/or the appropriate
     NCUA regional office. During this reporting period, the hotline received the following:



            HOTLINE CONTACTS                             Phone contacts / Voicemail
                                                         Email / Facsimile
                                                                                         90
                                                                                        220
                                                         Written correspondence          29
                                     Phone/              Total:                         339
                                     Voicemail
                                     Email/Fax


                                     Letters


                                     Walk ins




                                                    20
OIG Semiannual Report                                                             October 1, 2011 – March 31, 2012


     INVESTIGATIONS

     Employee Misconduct / Possible Abuse of Authority
     During this reporting period, the OIG received an allegation that an employee may have abused
     his authority in conducting a credit union examination. The investigation found that a
     miscommunication between the employee and his immediate supervisor resulted in a lower
     examination rating, which the credit union perceived as retaliatory. The investigation found that
     prior to the OIG receiving the case, the miscommunication was resolved and the original rating
     was restored. The OIG issued a Report of Investigation summarizing the investigation and
     closed this case.

     Unauthorized disclosure of confidential information
     During this reporting period, the OIG was asked to look into the possibility that an NCUA
     employee may have disclosed a credit union CAMEL rating to the media. The investigation
     determined that no NCUA employee was involved in the disclosure. Rather, the investigation
     found that a credit union official was the likely source of the disclosure, in an effort to discredit a
     potential nominee for an NCUA Board member appointment. The Report of Investigation aided
     NCUA in its investigation of the matter. On March 28, 2012, the NCUA issued an order
     prohibiting James M. Talbert from participating in the affairs of any federally insured credit
     union. The Prohibition Order cited Mr. Talbert for breaching his fiduciary duties in connection
     with his position at DC FCU by unlawfully disclosing non-public information. The OIG issued a
     Report of Investigation summarizing the investigation and closed this case.

     Employee Misconduct / Possible Time and Attendance Fraud and Conflict of Interest
     During the reporting period, the OIG received an allegation that an NCUA employee improperly
     used sick leave to fulfill instructional assignments for an outside employer. Additionally, the
     employee was alleged to have used materials he prepared as part of his official NCUA duties in
     his outside instructional assignments. The investigation revealed that the employee did in fact
     use some of his sick leave hours to fulfill his outside instructional assignments; however, the
     investigation found that he did not use materials prepared as part of his official duties for outside
     teaching.

     Employee Misconduct / False Statements
     During this reporting period, the OIG received allegations that a senior NCUA employee made
     false statements with regard to a state chartered credit union and the state regulator’s office.
     This investigation is ongoing.




                                                       21
OIG Semiannual Report                                                           October 1, 2011 – March 31, 2012




 PEER REVIEWS

 OCTOBER 1, 2011 THROUGH MARCH 31, 2012
 Section 6(e)(7) of the Inspector General Act of 1978, as amended, requires those OIGs that have
 been granted statutory law enforcement authority pursuant to the Act, to be periodically reviewed by
 another OIG or a committee of OIGs (Peer Review). The purpose of the peer review is to ascertain
 whether adequate internal safeguards and management procedures exist to ensure that the law
 enforcement powers conferred by the 2002 amendments to the Act are properly exercised. The
 NCUA OIG does not have statutory law enforcement authority; therefore, our investigative
 organization is not required to have a peer review and, to date has neither undergone a peer review
 nor conducted a peer review of another OIG. However, the NCUA Office of Investigations is slated
 to conduct its first peer review the third quarter of 2012 and is scheduled for its peer review the third
 quarter 2013.




                                                      22
OIG Semiannual Report                                                            October 1, 2011 – March 31, 2012




                           LEGISLATIVE AND REGULATORY REVIEWS

 Section 4(a) of the Inspector General Act requires the Inspector General to review existing and
 proposed legislation and regulations relating to the programs and operations of the NCUA and to make
 recommendations concerning their impact.           Moreover, we routinely review proposed agency
 instructions and other policy guidance, in order to make recommendations concerning economy and
 efficiency in the administration of NCUA programs and operations and the prevention and detection of
 fraud, waste and abuse.
 During the reporting period, the OIG reviewed 21 items, including proposed legislation, proposed and
 final regulations, Advanced Notice of Proposed Rulemakings (ANPR), and NCUA Letters to Credit
 Unions. The OIG also responded to seven (7) Freedom of Information Act requests.


                           SUMMARY OF STATUTES AND REGULATIONS REVIEWED

           Legislation                                           Title

       S. 2231               “Small Business Lending Enhancement Act”

       H.R. 3461             “Financial Institutions Examination Fairness and Consumer Credit Reform Act”

       S. 2105               “Cybersecurity Act of 2012”
                             “To Amend the Federal Deposit Insurance Act with Respect to Information
       H.R. 4014/S. 2099     Provided to the Consumer Financial Protection Bureau”

       H.R. 2572             “Clean Up Government Act of 2011”


         Regulations/Rulings/IRPS                                        Title

       12 CFR Parts 701, 760 and 790     Technical Amendments (Final Action)

       12 CFR Part 741                   Interest Rate Risk Policy and Program (Final Action)

       12 CFR Part 701                   Technical Amendments to Section 701.34 (Final Action)

       12 CFR Part 704                   Corporate Credit Unions (Final Action)
                                         Golden Parachute and Indemnification Payments; Technical
       12 CFR Part 750                   Correction (Final Action)

       12 CFR Part 701                   Remittance Transfers (Final Action)
                                         Community Development Revolving Loan Fund for Credit Unions
       12 CFR Part 701, 705 and 741      (Final Action)
                                         Financial Derivatives Transactions to Offset Interest Rate Risk;
       12 CFR Part 703                   Investment and Deposit Activities (ANPR with comment period)



                                                      23
OIG Semiannual Report                                                           October 1, 2011 – March 31, 2012


                                         Loan Workouts and Nonaccrual Policy, and Regulatory Reporting
                                         of Troubled Debt Restructured Loans (Proposed Rule with
       12 CFR Part 741                   Request for Comments)
                                         Eligible Obligations, Charitable Contributions, Nonmember
                                         Deposits, Fixed Assets, Investments, Member Business Loans,
                                         and Regulatory Flexibility Program (Proposed Rule with Request
       12 CFR Parts 701, 703, 723        for Comments)
                                         Maintaining Access to Emergency Liquidity (ANPR with comment
       12 CFR Parts 701 and 741          period)
                                         Loan Participations; Purchase, Sale and Pledge of Eligible
                                         Obligations; Purchase of Assets and Assumption of Liabilities
       12 CFR Parts 701 and 741          (Proposed Rule with Request for Comments)
                                         Loans in Areas Having Special Flood Hazards; Interagency
                                         Questions and Answers Regarding Flood Insurance (Notice and
       12 CFR Part 760                   Request for Comments)


       Letters to Credit Unions                                     Title

       11-1211                      Separation and Release Agreement (01/20/12)

       11-0903                      40-Year Real Estate Loan Modifications (02/10/12)

       11-0904                      Credit Union Service Organization (CUSO) Trustee Activity (11/17/11)




                                                      24
OIG Semiannual Report                                                            October 1, 2011 – March 31, 2012




                             TABLE I: INSPECTOR GENERAL ISSUED REPORTS
                                        WITH QUESTIONED COSTS

                                                              Number of Questioned      Unsupported
                                                               Reports    Costs            Costs


                For which no management decision
           A.   had been made by the start of the
                reporting period.                                0          $0               $0

           B.   Which were issued during the
                reporting period.                                0          0                 0



                Subtotals (A + B)                                0          0

           C.   For which management decision was
                made during the reporting period.                0          0                 0



                (i) Dollar value of disallowed costs             0          0                 0

                (ii) Dollar value of costs not allowed
                                                                 0          0                 0
                For which no management decision
           D.   has been made by the end of the
                reporting period.                                0          0                 0
                Reports for which no management
           E.   decision was made within six months
                of issuance.                                     0          0                 0

 Questioned costs are those costs the OIG has questioned because of alleged violations of laws,
 regulations, contracts, or other agreements; findings which at the time of the audit are not supported by
 adequate documentation; or the expenditure for the intended purpose is unnecessary or unreasonable.

 Unsupported costs (included in "Questioned Costs") are those costs the OIG has questioned because
 of the lack of adequate documentation at the time of the audit.




                                                         25
OIG Semiannual Report                                                   October 1, 2011 – March 31, 2012




                         TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH
                        RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                    Number of        Dollar
                                                                     Reports         Value


                 For which no management decision had been
           A.
                 made by the start of the reporting period.             0              $0


           B.    Which were issued during the reporting period.         0              0



                                    Subtotals (A + B)                   0              0



                 For which management decision was made
           C.
                 during the reporting period.                           0              0


                 (i) Dollar value of recommendations agreed to
                 by management.                                        N/A            N/A


                 (ii) Dollar value of recommendations not agreed
                 to by management.                                     N/A            N/A


                 For which no management decision was made
           D.
                 by the end of the reporting period.                    0              0


                 For which no management decision was made
           E.
                 within six months of issuance.                         0              0

 Recommendations that "Funds to be Put to Better Use" are those OIG recommendations that funds
 could be used more efficiently if management took actions to reduce outlays, de-obligate funds from
 programs/operations, avoid unnecessary expenditures noted in pre-award reviews of contracts, or any
 other specifically identified savings.




                                                    26
OIG Semiannual Report                                                     October 1, 2011 – March 31, 2012




                                  TABLE III: SUMMARY OF OIG ACTIVITY
                                 October 1, 2011 through March 31, 2012

                                   PART I – AUDIT REPORTS ISSUED

  Report                                                                                       Date
  Number                                          Title                                       Issued
                  Independent Evaluation of the NCUA’s Compliance with the Federal Inform
 OIG-11-12        Security Management Act (FISMA) 2011                                    11/10/2011

 OIG-11-13        NCUA Financial Statements Audit 2010 (TCCUSF)                             12/27/2011
   OIG-12-
 01/02/03/04      NCUA Financial Statements Audit 2010 (OF, CLF, CDRLF, SIF)                02/16/2012

 OIG-12-05        Material Loss Review of Vensure FCU                                       02/29/2012

 OIG-12-06        Audit of the NCUA’s Asset Management and Assistance Center (AMAC)         03/19/2012

                        PART II – AUDITS IN PROGRESS (as of March 31, 2012)


 NCUA Financial Statements Audit 2011 (TCCUSF)

 Material Loss Review of O.U.R. FCU

 Review of NCUA’s Controls over Sensitive and Proprietary Information

 Review of NCUA’s Examination Process for Small Credit Unions

 Review of NCUA’s Red Flag Reports




                                                  27
OIG Semiannual Report                                                          October 1, 2011 – March 31, 2012




                                  INDEX OF REPORTING REQUIREMENTS


    Section                                     Data Required                                       Page
                                                                                                     Ref

    4(a)(2)     Review of legislation and regulations                                                 23
                Significant problems, abuses, or deficiencies relating to the administration of
    5(a)(1)     programs and operations disclosed during the reporting period.                        11
                Recommendations with respect to significant problems, abuses or
    5(a)(3)     deficiencies                                                                          11
                Significant recommendations described in previous semiannual reports on
    5(a)(3)     which corrective action has not been completed.                                       15
                Summary of matters referred to prosecution authorities and prosecutions
    5(a)(4)     which have resulted.                                                               None
                Summary of each report to the Board detailing cases where access to all
    5(a)(5)     records was not provided or where information was refused.                         None

    5(a)(6)     List of audit reports issued during the reporting period.                             27

    5(a)(7)     Summary of particularly significant reports.                                          11

    5(a)(8)     Statistical tables on audit reports with questioned costs.                            25
                Statistical tables on audit reports with recommendations that funds be put to
    5(a)(9)     better use.                                                                           26
                Summary of each audit report issued before the start of the reporting period
                for which no management decision has been made by the end of the
    5(a)(10)    reporting period.                                                                  None
                Description and explanation of reasons for any significant revised
    5(a)(11)    management decision made during the reporting period.                              None
                Information concerning significant management decisions with which the
    5(a)(12)    Inspector General is in disagreement.                                              None
                An appendix containing the results of any peer review conducted by another
                OIG during the reporting period or, if no peer review was conducted within
                that reporting period, a statement identifying the date of the last peer review
    5(a)(14)    conducted by another OIG.                                                             19
                List of outstanding recommendations from any peer review conducted by
    5(a)(15)    another OIG that have not been fully implemented.                                  None
                A list of any peer reviews conducted by the IG of another OIG during the
                reporting period, including a list of any outstanding recommendations made
    5(a)(16)    that remain outstanding or have not been fully implemented.                           19




                                                        28
OIG Semiannual Report                                        October 1, 2011 – March 31, 2012


             APPENDIX A: NCUA SYSTEM REVIEW REPORT (SEC OIG REPORT NO. 478)




                                           29
OIG Semiannual Report        October 1, 2011 – March 31, 2012




                        30
OIG Semiannual Report        October 1, 2011 – March 31, 2012




                        31
OIG Semiannual Report        October 1, 2011 – March 31, 2012




                        32
OIG Semiannual Report        October 1, 2011 – March 31, 2012




                        33
